<html>
<title> - RENEWING THE TEMPORARY PROVISIONS OF THE VOTING RIGHTS ACT: AN INTRODUCTION TO THE EVIDENCE</title>
<body><pre>[Senate Hearing 109-555]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-555
 
    RENEWING THE TEMPORARY PROVISIONS OF THE VOTING RIGHTS ACT: AN 
                      INTRODUCTION TO THE EVIDENCE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2006

                               __________

                          Serial No. J-109-70

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
28-343                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     4
    prepared statement...........................................    17
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    10
    prepared statement...........................................    18
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     3
    prepared statement...........................................    20
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     2
    prepared statement...........................................    22
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Conyers, Hon. John, Jr., a Representative in Congress from the 
  State of Michigan..............................................     7
Sensenbrenner, Hon. F. James, Jr., a Representative in Congress 
  from the State of Wisconsin....................................     5

                       SUBMISSIONS FOR THE RECORD

Conyers, Hon. John, Jr., a Representative in Congress from the 
  State of Michigan, prepared statement..........................    12
Sensenbrenner, Hon. F. James, Jr., a Representative in Congress 
  from the State of Wisconsin, prepared statement................    25
Voting rights reports and hearings, list.........................    30


    RENEWING THE TEMPORARY PROVISIONS OF THE VOTING RIGHTS ACT: AN 
                      INTRODUCTION TO THE EVIDENCE

                              ----------                              


                        THURSDAY, APRIL 27, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, Cornyn, Leahy, Kennedy and 
Feingold.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good afternoon, ladies and gentlemen. I 
customarily say the Judiciary Committee will proceed, but I had 
better on this occasion say the Senate Judiciary Committee will 
proceed because we have both the Senate and the House Judiciary 
Committee present. We might have invited Chairman Sensenbrenner 
and Ranking Member Conyers here to sit on the dais, but we will 
proceed in the customary way.
    The Honorable F. James Sensenbrenner, Jr., a Member of 
Congress from the 5th District of Wisconsin, became a Member of 
Congress in November of 1978 after serving 10 years in the 
Wisconsin State Legislature. He became Chairman of the House 
Committee on the Judiciary beginning in the 107th Congress. 
Previously, he had served as Chairman of the House Committee on 
Science. He is a graduate of Stanford in 1965 and has a law 
degree from the University of Wisconsin in 1968.
    The Honorable John Conyers, Jr., is a Democratic Member 
from Detroit, Michigan, representing the 4th Congressional 
District. He entered the House of Representatives in 1964 and 
is now the second most senior member serving in the House. 
After serving as Chairman of the House Committee on 
Governmental Operations from 1989 to 1994, he was elected to 
lead the Democratic side of the House Committee on the 
Judiciary. He has a bachelor of arts degree in 1957 and his law 
degree in 1958 from Wayne State University.
    Welcome, Mr. Chairman and Mr. Ranking Member. It is an 
honor for us to have you here. We have talked preliminarily 
about the procedures which we will follow in moving ahead for 
the renewal of the Voting Rights Act, a matter of great 
importance. There is nothing more important than the right of 
citizens to vote, the backbone and basis of our constitutional 
democracy.
    We are also joined by Congressman John Lewis, from Georgia, 
and Congressman Mel Watt, from North Carolina.
    Senator Leahy.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Mr. Chairman, I join with you in the welcome 
to Chairman Sensenbrenner, Congressman Conyers and the others. 
It is interesting. Just in chatting in the back room, I was 
saying even in my State, which probably has the smallest number 
of minorities of any State in the country, this is a matter of 
great interest among church groups, civic groups, business 
groups, just as a matter of fairness, something that we pride 
ourselves on in Vermont. So I appreciate the work that the four 
of you have done, as has been mentioned, but also other, of 
course, other Representatives, Representative Nadler and Chabot 
and others.
    It is hard to even think there is a debate on such basic 
rights--the right to vote and the right to have your vote 
count, which is just as important as the right to vote, of 
course. The legitimacy of our Government is dependent on all 
Americans having that right.
    We are all reminded of the historic struggle for civil 
rights, led by such American heroes as Dr. Martin Luther King, 
Jr., and Coretta Scott King. We have been reminded again, if we 
needed the reminder, in the last few months of the courageous 
act of Rosa Parks, who said she was not going to be treated as 
a second-class citizen.
    I remember as a young lawyer March 7, 1965, the pictures in 
Selma, Alabama, of Congressman John Lewis, not a Congressman 
then, and his fellow civil rights marchers as they fought for 
their right to vote. They were attacked by State troopers on 
the Edmund Pettus Bridge--Bloody Sunday, the photographs, the 
television. It was something that galvanized the Nation. In my 
State of Vermont, where we just couldn't conceive of such 
things happening, unlike where John Lewis and so many others 
saw this as a daily thing, the outrage was palpable.
    A few days after that, President Johnson outlined the 
proposed Voting Rights Act of 1965. Within months, Congress 
passed it. The pervasive discriminatory tactics that led to it 
were deeply rooted. This fight dated back almost 100 years to 
the ratification of the 15th Amendment in 1870, the last of the 
post-Civil War Reconstruction amendments. It wasn't until 1965, 
95 years later, that we were actually making that a reality.
    We have authorized it, we have reauthorized it. In 1982, we 
had a bipartisan process. Mr. Chairman, you and I were there 
from this Committee, and, of course, Senator Kennedy, who has 
been the leader for so many years on this, and Senator Biden, 
Senator Hatch, Senator Grassley, and the late Senator Strom 
Thurmond. We passed it in both Houses.
    I have a lot more and I will just put it in the record, Mr. 
Chairman, but the point being at a time of increasing 
partisanship and at a time sometimes when both bodies find 
themselves at loggerheads, this is one thing that ought to 
unite all of us--Republicans, Democrats, members of the House, 
members of the Senate. We would truly be doing this Nation's 
business. Let's pass it.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Specter. Senator Kennedy, would you care to make 
an opening statement?

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you, Mr. Chairman. I first of all 
want to thank you and Senator Leahy for having this hearing 
today, and welcoming our colleagues and friends from the House. 
They have been diligent in reviewing this legislation a great 
deal. They have brought together experts from all parts of the 
country with varying views. I want to commend you and Senator 
Leahy for inviting them to share this extraordinary collection 
of material that can be of such value to the Senate in its 
consideration of this very important issue and question.
    I am reminded, when I see both Representative Sensenbrenner 
and Representative Conyers, that both of them were here in 1982 
when we reauthorized it. At that time, if you remember, Mr. 
Chairman, actually the administration did not favor the 
extension of it at that time. It was a matter that was 
contentious and took a good deal of time. The House led the way 
in that struggle and battle, and the Senate passed it with over 
70 votes ultimately. Dr. King called the Voting Rights Act the 
No. 1 civil right, the right to vote and have that vote fully 
and fairly counted.
    Mr. Chairman, I had the opportunity to participate in the 
Act's original passage and each of the later renewals. The year 
after its passage, I had the privilege of addressing the 
Southern Christian Leadership Conference in Mississippi, at the 
invitation of Dr. King. When he and Coretta King met me at the 
airport, we drove back along a road littered with hate leaflets 
and two-inch nails, intended, no doubt, as a threat to the 
Kings.
    That trip was significant not for these attempts at 
intimidation, but for the enthusiasm that every one of the SCLC 
delegates showed for the right to vote newly protected by the 
Voting Rights Act and to participate fully in our American 
democracy.
    There are no words to describe the importance of the step 
we took in passing the Act to see that America finally lived up 
to its ideals of democracy and justice for all. And as we 
considering reauthorizing key portions of the law, we must 
remember how far we have come and we must never, never go back 
to the dark days. Section 5 serves as an important protection 
against backsliding by jurisdictions with a history of 
particularly severe discrimination in voting.
    So, Mr. Chairman, I look forward to the presentations of 
our friends today and to the hearings and to the passage of 
this legislation. As our friend, Senator Leahy, and others have 
pointed out, there have been many areas of division in the 
Congress. The idea that we could all come together in support 
of this legislation at this time on an issue of such 
overwhelming importance and consequence, I think, is a very 
important message to the American people that those that have 
positions of responsibility understand that the right to vote 
is the bedrock of our democracy and to all democracies, and we 
are going to do everything we can to preserve it.
    I thank the Chair.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Senator Kennedy.
    Senator Cornyn, would you care to make an opening 
statement?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I do have a brief 
statement. Thank you, first of all, for holding this first in a 
series of hearings to explore the expiring provisions of the 
Voting Rights Act. As you have already noted, few issues are as 
fundamental to our system of democracy and the promise of 
equality inherent in our Nation's founding as voting rights, 
rightfully called by President Reagan the crown jewel of 
American liberties.
    The Voting Rights Act was adopted at the height of the 
civil rights movement in 1965. On the day he signed the bill 
into law, President Lyndon Johnson, a former member of this 
body whose seat I am privileged to hold, referred to the Act's 
passage as a, quote, ``triumph of freedom as huge as any 
victory that has ever been won on any battlefield.''
    President Johnson's words captured the atmosphere 
surrounding the Act's passage, a hard-fought victory at a tense 
time in the Nation's history. Indeed, it is no secret why the 
Voting Rights Act was necessary. Numerous jurisdictions 
throughout the United States had engaged in the intentional, 
systematic disenfranchisement of blacks and other minorities 
through the use of tests, taxes, intimidation and other 
oppressive measures.
    In response, the Voting Rights Act permanently enshrined in 
law the long-unfulfilled promise of citizenship and democratic 
participation guaranteed by the 15th Amendment to the United 
States Constitution. It further enacted for a 5-year period 
provisions designed to subject certain jurisdictions to Federal 
oversight of their voting laws and procedures until the intent 
of the Act was realized.
    I think it is significant to point to the fact that much 
progress has been made. Today, black voter registration rates 
are approaching, and in many areas have surpassed the rates of 
white voters. Hispanic voter registration is rapidly rising as 
well. In my State of Texas, in 2004, black voter registration 
was 68.4 percent, as compared to a national average of 64.4 
percent. Hispanic voter registration was 41.5 percent, as 
compared to a national average of 34.5 percent.
    With this marked progress as a backdrop, we are faced with 
determining whether certain provisions of the Act should be 
renewed, as they were in 1970, 1975 and 1982. As we proceed 
with the upcoming hearings listening to witnesses and studying 
the record, I hope we will seek a complete understanding of the 
strides made toward political empowerment and equal access to 
democratic participation throughout the Nation and craft our 
future national policy accordingly.
    Thank you very much.
    Chairman Specter. Thank you very much, Senator Cornyn.
    Your full statement will be made a part of the record, 
without objection.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Chairman Specter. We turn now to you, Chairman 
Sensenbrenner.

STATEMENT OF HON. F. JAMES SENSENBRENNER, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WISCONSIN

    Representative Sensenbrenner. Thank you very much, Chairman 
Specter, Ranking Member Leahy, Senators Kennedy and Cornyn. I 
thank you for the opportunity to testify this afternoon. 
Ranking Member Conyers and I are here today to express 
bipartisan support for legislation to extend the Voting Rights 
Act to ensure that the right to vote continues to be protected 
to the full extent of Congress' constitutional authority.
    As many of you know, my interest in the Voting Rights Act 
dates back some 25 years. In 1982, I was proud to help lead a 
bipartisan effort to reauthorize the temporary provisions of 
the Voting Rights Act for an additional 25 years. In addition 
to reauthorizing the Act, we made several necessary changes to 
Sections 2 and 4 to address the concerns of many interested 
parties. I believe that the 1982 amendments have been effective 
in further transforming our local, State and Federal election 
systems for the better.
    Over the last 25 years, we have witnessed significant 
increases in minority registration and turn-out. We have also 
seen substantial changes in the make-up of local, State and 
Federal elected offices. Today, more and more minority citizens 
hold elective office in Congress, State legislatures, city 
councils and school boards, and our Nation has been enriched as 
a result.
    Last summer, in recognizing the 40th anniversary of the 
Voting Rights Act, I, along with Ranking Member Conyers and 
Judiciary Committee member and Congressional Black Caucus Chair 
Mel Watt and our colleague civil rights leader John Lewis of 
Georgia, pledged our commitment to see the Voting Rights Act's 
temporary provisions reauthorized for an additional 25 years.
    Since last fall, the House Judiciary Committee has examined 
the Voting Rights Act in great detail, with a particular focus 
on the provisions currently set to expire in 2007. I am here 
today to present this Committee with the results of our 
examination, which includes almost 8,000 pages of testimony 
that comprise 9 of the 10 hearing records compiled by the House 
Judiciary Committee.
    Since October of last year, the House Subcommittee on the 
Constitution has held 10 hearings and received oral and written 
testimony from more than 39 witnesses, including supporters and 
opponents of reauthorization. The hearings examined the 
effectiveness of each of the expiring provisions in remedying 
discrimination, as well as their continued need over the next 
25 years. In some cases, the Committee held multiple hearings 
on certain provisions to ensure that all of the relevant issues 
were fully examined.
    I would ask the Committee to incorporate the hearing record 
compiled by the House into your record.
    Chairman Specter. Without objection, it will be made a part 
of our record, perhaps the most voluminous unanimous consent 
request in the history of the Committee.
    Representative Sensenbrenner. Mr. Chairman, quality rather 
than quantity counts, and you will find there is quality in 
there, too.
    Chairman Specter. We accept the representation of quality. 
We observe the quantity.
    Representative Sensenbrenner. Thank you.
    In particular, the Committee examined the continued effect 
of Section 4(b)'s trigger formula and identifying those 
jurisdictions covered by the extraordinary remedies; the 
feasibility of the bail-out process, as demonstrated by the 
successful bail-out of eleven counties in the covered State of 
Virginia; the increased use and continued need for Section 5's 
pre-clearance requirements; the continued need for Federal 
observers in covered jurisdictions to protect minority voters; 
and the impact Section 203 has had on facilitating the 
participation of language-minority citizens in the political 
process.
    The Committee has also carefully examined the impact 
certain Supreme Court decisions have had on Section 5's ability 
to protect minorities from discriminatory voting changes 
enacted by covered jurisdictions, particularly in State and 
Congressional redistricting initiatives.
    In addition to the testimony received during the hearings, 
the Committee has received and incorporated into its hearing 
record written testimony from the Department of Justice, non-
governmental organizations, and other interested citizens, 
including several comprehensive national and State reports. 
This information significantly strengthened the Committee's 
record by documenting discrimination in the electoral process, 
the temporary provisions' effectiveness in addressing 
discrimination, and the continued need for Federal oversight in 
covered jurisdictions over the next 25 years.
    This comprehensive record established by the Committee 
strongly supports reauthorization of the VRA, and I believe 
this record will be vitally important in ensuring that the 
resulting legislation can withstand an almost certain 
constitutional challenge. The Supreme Court looked to similar 
records in upholding the use of these extraordinary measures on 
two separate occasions, first in 1965, and again in 1980.
    It has been 40 years since Congress took the first steps to 
remedy our Nation's sad history of discrimination in voting. 
The Committee's record demonstrates that while progress has 
been made, the vestiges of discrimination are still present in 
certain parts of the country. As the record also reveals, 
Congress is clearly justified under Section 2 of the 15th 
Amendment in using all remedies at its disposal to ensure that 
the most fundamental right of citizenship, the right to vote, 
is protected for all citizens.
    Thank you for your indulgence today, and happy reading.
    [The prepared statement of Representative Sensenbrenner 
appears as a submission for the record.]
    Chairman Specter. Thank you very much, Mr. Chairman.
    Member Conyers.

   STATEMENT OF HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Representative Conyers. Thank you, Chairman Specter, and to 
our Ranking Member, Pat Leahy, and our dear friend, Senator Ted 
Kennedy. It is an honor for me to appear here today. You see, 
my congressional career goes back to 1965 and my service on the 
Judiciary Committee as the first African-American to hold that 
honored position has not been lost on me all these years.
    So I am deeply sensitive to the fact that John Lewis just 
passed me a note observing that today is the birthday of the 
late Coretta Scott King, and so I see the significance of this 
moment, of this day, of the House and the Senate coming 
together to work as expeditiously as we can to continue the 
crown jewel of the civil rights laws in America. I also 
remember that it was in Atlanta that Senator Ted Kennedy spoke 
for the U.S. Senate at the memorial services of Coretta King 
and I was honored to make a presentation for the House of 
Representatives. So this is special.
    When Martin King and Roy Wilkins and Whitney Young went 
back to President Johnson to ask for a voting rights bill, he 
told them that he had thought that he gotten as much as he 
could out of the legislative body here and that it might not be 
possible. But when he saw that Bloody Sunday, which went across 
the Nation on television, he, like the country, was shocked at 
the violence that was visited upon all of those folks there in 
a non-violent, peaceful march for voting rights, in which many 
others, including John Lewis, was a participant. He called back 
and said I want to get an effective and strong Voting Rights 
Act as quickly as we can through the Congress.
    It is funny how these things come together, and I commend 
Jim Sensenbrenner, the Chairman of this Committee, because he 
was very effective in the 1982 extensions and has worked with 
us in a truly cooperative way. It is not by accident that we 
have John Lewis behind us, and Mel Watt, a member of the 
Judiciary Committee and, as well, Chairman of the congressional 
Black Caucus.
    We have enjoyed, as this hearing demonstrates, 
unprecedented levels of bipartisan support in Congress in 1970, 
1975 and 1982, and I believe that all of us together can move 
through the closing months of this 109th session to accomplish 
what all America, and indeed in some respects all the world is 
waiting to see, if we can get this through and also keep the 
measure as strong as it was when it was passed in 1965.
    In 1965, of course, the civil rights era was in full bloom. 
In sit-ins and marches across the South, in response to massive 
resistance to the call for equal rights and voter rights, brave 
Americans of different races and religions risked their lives 
to stand up for political equality.
    So today, as the Senate commences the process of 
reauthorizing the Act, its importance to opening the political 
process for all Americans is beyond doubt or challenge. Across 
the Nation, the number of people of color and minorities 
elected to Federal, State and local offices has increased 
tremendously in the last 40 years, further opening the 
political process.
    It is not an overstatement to call the Voting Rights Act 
the keystone of our Nation's array of civil rights statutes. 
And against this historical backdrop, we view our hearings and 
the larger reauthorization process as an opportunity to take 
stock of where we are and, if necessary, to make adjustments 
that will protect and restore the Act just as we have done in 
the past.
    As Chairman Sensenbrenner has noted, we pay particular 
attention to the pre-clearance provisions of Section 5 and the 
language minority provisions of Section 203. However, we also 
focus on some less well-known examiner and observer provisions 
which are designed to ensure fair access to the polls.
    Our inquiry broke down into two fundamental questions: Is 
there an adequate record of discrimination to justify 
reauthorization of the expiring provisions, and are the 
expiring provisions, as interpreted by the courts, still 
adequate to protect the rights of minority voters.
    While there is so much to celebrate over the last 40 years, 
our record indicates that we have not yet reached the point 
where the special provisions of the Act should be allowed to 
lapse. As some might have you believe, efforts to suppress or 
dilute minority votes, I report to you sadly, are still all too 
common.
    With respect to Section 5, covered jurisdictions, we found 
continuing patterns of discrimination in voting, as evidenced 
by adverse Section 2 findings, Section 5 objections, and 
withdrawals of Section 5 submissions after requests for more 
information from the Department of Justice itself.
    Similarly, with respect to Section 203, we received 
substantial testimony from the advocacy community and the 
Department of Justice, supported by its litigation record, that 
language minorities remain the victims of discrimination in 
voting. Most importantly, our record indicates that substantial 
native-born populations and other citizens still need language 
assistance to cast an effective ballot.
    In addition to examining whether there was continuing 
discrimination in voting, we also examined the impact that 
several Supreme Court decisions have had on Section 5's ability 
to protect the minority community in covered jurisdictions from 
discriminatory voting changes. This inquiry was important to 
ensure the continuing vitality of the Voting Rights Act.
    Just as we found in 1982, after examining the negative 
impact of Mobile v. Bolden on Section 2, a straight 
reauthorization of the Act will not be sufficient to protect 
the rights of minority voters, given its evolution in the 
Court. Our examination focused on the impact of two Supreme 
Court cases, in particular, the Bossier Parish case, and the 
other case was Georgia v. Ashcroft. In another narrow majority, 
we had a discussion about whether or not we could have factors 
balance out the loss in minority voting power through so-called 
influence districts.
    So against this historical backdrop, we want you to know 
that we think that the way that we have agreed to proceed--and 
I want to thank the Chairman of this Committee--it is very, 
very important that we work as closely together, as 
expeditiously as possible. And we trust that whatever is useful 
in our hearings that may be used by this distinguished 
Committee will be put to full use.
    Our record with respect to this inquiry leaves us to 
confront the prospect that cases may severely limit the scope 
of the Act's non-discrimination standards. And just as in 1982, 
we are presented with choices of whether to simply reauthorize 
the Act or to address the actions of the Court and restore the 
Act to the standard that was earlier intended by Congress.
    The Voting Rights Act is one of the Nation's most important 
civil rights victories. It memorializes those who marched, 
struggled, and even died to secure the right to vote for all 
Americans. In the global circumstances in which we find 
ourselves today, we know that many on this planet are looking 
to see how effectively we can handle the responsibilities that 
are before both bodies.
    We owe a deliberative and thoughtful process to those who 
have risked so much in the fight for equal rights. And while we 
must applaud the substantial progress that has been made in the 
area of voting rights, we must also continue our efforts to 
protect the rights of every American voter with the 
reauthorization and restoration of the expiring provisions of 
the Act.
    The Voting Rights Act remains the crown jewel of our civil 
rights laws. We must extend the Act at full strength, and I am 
fully committed to do that. And I know that I speak for every 
Member on the House side of the Judiciary, and we know and 
trust that you, Mr. Chairman, and Senator Kennedy will do all 
in your power to move this very, very vital measure forward as 
expeditiously as you can.
    I thank you for this opportunity today.
    [The prepared statement of Representative Conyers appears 
as a submission for the record.]
    Chairman Specter. Thank you very much, Ranking Member 
Conyers.
    We share the sentiments which you two distinguished 
legislators have articulated. I have no questions. I believe 
the questions are all answered by the qualitative and 
quantitative introduction of evidence today which has been made 
a part of our record.
    I like the qualitative and quantitative record because we 
have to be sure that it passes muster. We do not know what the 
Supreme Court will do. When they declared portions of the 
violence against women legislation unconstitutional because of 
an insufficient record, which was voluminous, a mountain of 
data identified by Justice Souter in dissent, they said we had 
a defective, quote, ``method of reasoning,'' which is 
incredible and insulting, candidly.
    Then when they declared the Americans With Disabilities Act 
unconstitutional in an employment discrimination case in 
Garrett v. Alabama, five to four, and then, five to four, the 
same record upheld access in Tennessee v. Lane under a standard 
of proportion and congruent, plucked out of thin air, it puts 
us on notice that we had better have the kind of a record that 
you have produced here today. We thank you.
    Senator Kennedy, would you care to comment?
    Senator Kennedy. Thank you, Mr. Chairman. I will reserve 
any questions until our own hearings. I am very grateful for 
the opportunity to hear our two distinguished colleagues and 
understand the depth of their pursuit on this issue. I agree we 
have an important opportunity to take very essential and 
necessary action, and hopefully we can do that expeditiously.
    We thank you both for being here. I thank you, Mr. 
Chairman.
    Chairman Specter. We are committed, as we talked about 
earlier Chairman Sensenbrenner and Ranking Member Conyers, to 
join with you on joint introduction, bicameral introduction, 
and to meet the timetables which we have discussed.
    Senator Feingold, would you care to comment?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Yes, Mr. Chairman, briefly. I am pleased 
to be here for this first hearing on the renewal of the Voting 
Rights Act. I would first like to welcome Chairman 
Sensenbrenner and Ranking Member Conyers, and thank them for 
being here.
    Chairman Sensenbrenner, your leadership on this issue has 
been heartening. I understand you came to this issue in 1982 as 
something of a skeptic, and yet you approached the issue with 
an open mind and ultimately came away with the impression that, 
as you have said, the ingenuity of the human mind is limitless 
when it comes to devising ways to rig elections or to favor 
certain candidates.
    In light of the evidence presented during that 
reauthorization process, you worked tirelessly to ensure the 
Act's reauthorization. We were fortunate to have you as a 
champion of the Act at that time and we are fortunate to have 
you here again today as Chairman.
    I also welcome, of course, my colleague and friend, 
Representative Conyers. Few in this Congress have done more to 
advance civil rights than Mr. Conyers. He and I have worked 
closely on many legislative issues, including racial profiling, 
bankruptcy, and the integrity of our electoral process. I am, 
of course, not only pleased that you are here today, but the 
other distinguished colleagues from the House who are here with 
you today, underscoring the great importance of this.
    The Voting Rights Act has been hailed as the most important 
piece of Federal legislation in our Nation's history, not just 
the most important piece of civil rights legislation, but the 
most important piece of legislation ever passed. This may well 
be true. It is from our political rights, our rights of 
citizenship, that all other freedoms flow. Without a meaningful 
chance to vote, there can be no equality before the law, no 
equal access to justice, to equal opportunity in the workplace 
or to share in the burdens and benefits of citizenship.
    In 1965, the year that the Voting Rights Act first passed, 
our Nation was failing to fulfill one of its most fundamental 
promises--representation for all. At that time, African-
Americans were excluded from almost all public offices in many 
areas of the South, and discriminatory election practices at 
the State level were having a devastating effect on the ability 
of minorities to exercise their right to vote.
    In response to the horrific events in Selma, Alabama, and 
after years of effort in Congress and around the country, on 
August 6, 1965, the Voting Rights Act became law. Certainly, 
much has changed since then. The Voting Rights Act has allowed 
millions of minority voters to exercise their constitutional 
rights to participate fully in elections. There are a record 
number of African-American and Hispanic members serving in 
Congress today, and the number of minorities serving in other 
levels of government has increased dramatically as well.
    Furthermore, the Act has been amended to cover non-English-
speaking minorities such as Latinos, Asian-Americans, Native 
Americans, Alaskan Natives and other minority groups, and has 
been used to examine and challenge new election formats that 
dilute minority votes.
    Unfortunately, though, obviously, as has been pointed out, 
we have much more work to do. As the record that our witnesses 
present helps to illuminate, in each election cycle many 
Americans are still disenfranchised by discriminatory 
redistricting plans, voter intimidation tactics, long lines at 
polling places, inadequate numbers of voting machines, and 
lifetime restrictions on voting rights for ex-felons.
    In 2007, key elements of the Voting Rights Act, including 
the Federal pre-clearance requirement, provisions related to 
Federal examiners and observers, and certain language 
assistance programs are due to expire. Voters should not be put 
in the position of having to re-fight the battles won in the 
civil rights struggle. We should be building on the success of 
the Voting Rights Act, not turning back the clock in the face 
of ongoing threats to our election system.
    I hope today's hearing will be the first step in that 
process in the Senate, and I look forward to working with 
supporters of the Voting Rights Act on both sides of the aisle 
to reauthorize this Act this year and make sure we establish 
the legislative record needed to support it in court.
    I want to, of course, thank again the Chairman for holding 
this important hearing and thank our witnesses from across the 
Capitol for their work on this issue and for joining us today.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Feingold. Thank you, 
Senator Leahy. Thank you, Senator Kennedy. And most of all, 
thank you, Chairman Sensenbrenner, and thank you, 
Representative Conyers.
    That concludes our hearing.
    [Whereupon, at 3:18 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T8343.001
    
    [GRAPHIC] [TIFF OMITTED] T8343.002
    
    [GRAPHIC] [TIFF OMITTED] T8343.003
    
    [GRAPHIC] [TIFF OMITTED] T8343.004
    
    [GRAPHIC] [TIFF OMITTED] T8343.005
    
    [GRAPHIC] [TIFF OMITTED] T8343.006
    
    [GRAPHIC] [TIFF OMITTED] T8343.007
    
    [GRAPHIC] [TIFF OMITTED] T8343.008
    
    [GRAPHIC] [TIFF OMITTED] T8343.009
    
    [GRAPHIC] [TIFF OMITTED] T8343.010
    
    [GRAPHIC] [TIFF OMITTED] T8343.011
    
    [GRAPHIC] [TIFF OMITTED] T8343.012
    
    [GRAPHIC] [TIFF OMITTED] T8343.013
    
    [GRAPHIC] [TIFF OMITTED] T8343.014
    
    [GRAPHIC] [TIFF OMITTED] T8343.015
    
    [GRAPHIC] [TIFF OMITTED] T8343.016
    
    [GRAPHIC] [TIFF OMITTED] T8343.017
    
    [GRAPHIC] [TIFF OMITTED] T8343.018
    
    [GRAPHIC] [TIFF OMITTED] T8343.019
    
    [GRAPHIC] [TIFF OMITTED] T8343.020
    
                                 <all>

</pre></body></html>
